Office of Inspector General

                    General  



        Best Practices for 

      Time and Attendance 

         Implementation


            OR10-02 





            May 2010


FEDERAL MARITIME COMMISSION 

                                                               FEDERAL MARITIME COMMISSION

                                                                  Office of Inspector General
 
                                                                  Washington, DC 20573‐0001
 


                                                                        May 14, 2010
                                      
Office of Inspector General 

TO: 	                        Ronald D. Murphy
                             Managing Director


FROM: 	                      Adam R. Trzeciak
                             Inspector General

SUBJECT: 	                   Best Practices for Time & Attendance Implementation

        The Office of Inspector General (OIG) recently completed a review of time and
attendance (T&A) practices in six FMC bureaus / offices. During our audits, we noted
similarities and differences among the bureaus / offices. Some T&A practices seemed to us to
work better (i.e., stronger controls, higher compliance rates) than others. Based on these audits,
we have identified select “best practices” to help the agency to comply with T&A requirements
and/or to enhance the efficiency and effectiveness of agency payroll practices.

        While we found both similarities and differences among the practices used in FMC
bureaus and offices to administer payroll, perhaps the most noticeable, and arguably the most
inefficient process, was the lack of uniformity among the bureaus / offices to monitor employee
time and attendance. With that in mind, the OIG developed this list of 12 best practices to assist
the agency to standardize its T&A practices.

        FMC managers provided the OIG with an action plan to address the vulnerabilities we
identified in each of the bureaus and offices audited. Due to the nature of sampling
methodology, we cannot provide assurances that all vulnerabilities and weaknesses were
identified in each office that we visited. On the other hand identifying best practices enables
bureaus and offices to adopt practices that appeared to us to enhance program efficiency and
effectiveness.

        As the agency’s T&A systems evolve away from paper-based, manual systems to
automated methods to record T&A, it is important that management implement and maintain
well-defined internal control activities that provide management some assurances that the system
is working as designed. The Government Accountability Office (GAO), Internal Control
Standards, provide criteria for federal agencies to follow in establishing internal control over
their operations, including T&A reporting. 1 We relied on GAO guidance as criteria throughout
                                                            
1
 GAO’s Standards for Internal Control in the Federal Government provides the criteria for developing and
maintaining internal control over federal agency operations, including T&A reporting, under 31 U.S.C. 3512(c),(d).
our audits. According to GAO, the primary objectives of internal control in a T&A system are to
ensure that the system complies with applicable legal requirements, supports reporting of reliable
financial information, and operates effectively and efficiently.

    During our review, the OIG identified the following efficiencies and best practices.

    1.   Continue use of OPM Form 71

         According to GAO, leave approval should be made by the employee’s supervisor, or
         other designated approving official, before leave is taken. If leave is not approved in
         advance, because of an unusual or emergency situation, it should be reviewed for
         approval or disapproved as soon as reasonably possible after it is taken. Importantly, an
         OPM Form 71 should be submitted for all leave requests.

         Both GAO and FMC Commission Order (CO) 64, Employee Absence and Leave, require
         that leave be requested in advance of leave used, when possible, to enable supervisors to
         plan. There is no other document used in the FMC (other than the OPM Form 71) that
         provides such advance notification.

         The OIG noted wide latitude in the use of the qualifier “when possible,” (as highlighted
         above). Some interpreted “when possible” to mean that advance notice was not a
         requirement, i.e., if it was not possible to request leave in advance, or if the employee
         “forgot” to submit a leave slip before taking leave, it was not necessary to request the
         leave in writing after the leave event. Clearly the policy is worded to provide employees
         latitude if they must use emergency leave or sick leave and are unable to request leave in
         advance. It is not meant to provide the employee with the option to disregard the leave
         slip.

         Some staff indicated that leave requests are made via e-mail. However, emails do not
         provide certifications that the leave requested is for purposes stated (to help prevent
         abuse of sick leave, for example). Further, this practice (e-mail notification) is used
         inconsistently and is not common to all bureaus and offices.

         Other bureaus/offices we spoke with used electronic calendars to record proposed leave.
         This alternative has the advantage of enabling supervisors within the office to ascertain
         planned leave within the office, but, when used alone, does not provide needed
         certifications. (The office(s) that used an electronic calendar also use the OPM
         Form 71.)
         When OPM Form 71 is signed by the supervisor, it should be given directly to the
         timekeeper and not maintained by the employee. This is an added safeguard to ensure
         that leave requests on the leave slips identify leave approved by the supervisor. Changes
         in planned leave should be noted on the OPM Form 71 with a notation by the employee.




                                                  2
 
 
         Best Practice No. 1: Approval of leave should be made by the employee’s supervisor,
         or other designated approving official, before the leave is taken. If leave is not
         approved in advance because of an unusual or emergency situation, it should be
         reviewed for approval (or disapproval) as soon as reasonably possible after it is taken.

         Best Practice No. 2: All requests for leave should be documented on OPM Form 71.

         Best Practice No. 3: Either the supervisor or the timekeeper should maintain custody
         of approved leave slips.

    2.   Require use of FMC Form 109, Arrival and Departure Schedules

         Controls over T&A information should provide reasonable assurance that such
         information (i) is recorded completely, accurately and as promptly as possible, (ii)
         reflects actual work performed or leave taken, (iii) is sufficiently detailed to allow for
         verification, and (iv) complies with legal requirements.

         FMC staff working an alternative work schedule (AWS) is required to complete the FMC
         Form 109, Employee Arrival and Departure Record, which documents (i) arrival and
         departure times and (ii) annual / sick leave usage, for each day in the pay period. The
         requirement to record arrival / departure times provides a control over attendance abuse.
         However, only FMC employees on AWS are required to complete the form.

         During our audits, we noted that some bureaus/offices used the FMC Form 109 to record
         staff T&A regardless of whether the employee worked an AWS schedule. Two offices
         made revisions to the FMC Form 109 that, we believe, are useful and capture more
         relevant information for use by timekeepers. Importantly, the revised form does not
         require staff to maintain daily arrival and departure records.

         When completing the FMC Form 109, we noted that many staff did not report actual
         arrival or departure times, instead staff simply recorded scheduled arrivals and
         departures. Further, there are few controls in place preventing staff from entering
         incorrect arrival and/or departure times.

         Best Practice No. 4: Continue use of FMC Form 109 to record leave usage for all staff
         but amend the form to capture employee daily work and leave hours. Discontinue the
         requirement to record daily arrival and departure times. Include expanded
         certification statement on the revised FMC Form 109 to include the identification of
         sanctions for fraudulently recording time.

         The OIG has included the preferred FMC Form 109 as an Attachment to the report.




                                                   3
 
 
    3.   Timekeeper Proximity to Staff

         According to GAO, supervisors and timekeepers should be aware of work schedules and
         employee absences for staff whose T&A they record. Approval of T&A reports should
         be based, in part, on timekeeper verification. Timekeeper observation is an added
         deterrent over common abuses, to include routine, extended lunch periods and habitual
         late arrival and/or early departures.

         One timekeeper that was physically separated from staff, whose T&A she recorded in the
         payroll system, told the OIG that she did not question employee-prepared biweekly FMC
         Forms 109 because she had no basis to question their veracity, i.e., she did not observe
         employee arrivals and departures. In this particular office, the supervisor was away from
         the office for an extended period due to a work-related injury. Staff did not review each
         other’s timesheets prior to their submission to the timekeeper.

         Oversight by coworkers, timekeepers and supervisors serves as a strong deterrent to false
         claims and also helps to prevent erroneous claims. A timekeeper presence serves as a
         reminder to staff to properly record leave when used and, perhaps more importantly (and
         depending on timekeeper systems of control), timekeepers are often aware of staff
         absences through observation.

         Best Practice No. 5: Require all timekeepers, and alternate timekeepers when feasible,
         to be physically located within the office they serve.

    4.   Preapproval for Changes to AWS Days

         The OIG noted a number of temporary staff changes to AWS schedules. We recognize
         the benefit of flexibility and that the ability to float the AWS day off enables staff to
         conserve leave.

         For these and other reasons, the OIG supports staff’s ability to occasionally switch an
         AWS day off. However, these moves must be approved in advance (an email or some
         other documentation is sufficient) by the employee’s supervisor and documented on the
         FMC Form 109.

         One potential concern involves the frequency of such switches. Management approves
         AWS schedules in advance with an eye on maintaining balance and coverage in the
         office. Frequent changes can become disruptive to operations when meetings have to be
         rescheduled, assistance is needed by subordinate staff, phone calls go unanswered, etc.
         When AWS days are switched, all staff in the workgroup should be informed.

         Best Practice No. 6: Changes to AWS days should be approved in advance and in
         writing by the supervisor. Documentation should be provided to the timekeeper for
         reconciliation.




                                                  4
 
 
    5.   Compensatory Time Preapproved

         According to GAO, approval should be obtained for compensatory time (a.k.a.,
         “overtime”) before the work has been performed, when feasible, and, when not feasible,
         as soon as possible after the work has been performed.

         During the audit, the OIG identified one individual who effectively worked overtime by
         working on his scheduled AWS day off, then used the compensatory hours earned in a
         subsequent pay period. The individual did not request overtime and did not record the
         overtime in the payroll system. Payroll regulations do not permit such flexibility.

         In these circumstances, the individual should have requested compensatory time so that a
         record could be maintained by the timekeeper. The decision to permit overtime should
         be based on needs of the office, not employee convenience. The record should include
         the reason for the overtime and the bureau director’s approval with the supervisor’s
         concurrence.

         Best Practice No. 7: All work in excess of 80 hours per pay period that will be earned
         as compensatory time should be approved by the supervisor with bureau / office
         director concurrence.

    6. Authorizing Employee Work Schedules

         According to GAO, an employee’s work schedule should be approved by the supervisor
         before the period when the plan takes effect. Currently, FMC employees work traditional
         (8-hour) days with flexible start times between the core hours of 6:00 a.m. and 10 a.m.
         Employees, with supervisory approval, can also work alternative work schedules (nine or
         ten hour days) and may telecommute one day per pay period or episodically.

         Due to the varied times and scheduled work days, supervisors need to plan for meetings
         and coverage in the office, especially when interaction with the public or agency
         stakeholders is required. Consequently, supervisors need to be aware of employee work
         preferences and should approve proposed schedules. In this way, the smooth functioning
         of the office can be assured.

         During the audit the OIG documented both schedule changes by employees and
         supervisor reassignments. Employee requests for work-schedule changes should be
         discussed with the employee’s first line supervisor, who should then clear the request
         with bureau management. Every attempt should be made to accommodate preferences.
         Supervisory considerations may include coverage for the office (the supervisor may not
         wish to grant employee-proposed changes if such changes would leave the office under
         staffed for critical times of the day). When supervisors leave or are reassigned, new
         supervisors should approve current work schedules of their staff.




                                                 5
 
 
       Best Practice No. 8: Obtain supervisory approval for all work schedule changes.
       When supervisors change, direct reports should submit FMC Form 110 for supervisory
       concurrence.

    7. Enhance guidance for Worker’s Compensation Program

       The Federal Employees’ Compensation Act of 1993 is administered by the Department of
       Labor, Office of Workers’ Compensation Programs (OWCP). It provides compensation
       benefits to civilian employees of the United States for disability due to personal injury
       sustained while in the performance of duty or to employment-related disease. The
       FMC’s workers’ compensation policy is in CO 59, Occupational Safety & Health (June
       14, 2000).

       An employee who sustains a disabling, job-related traumatic injury may request
       continuation of pay (COP) for the period of disability not to exceed 45 calendar days.
       When an injury occurs the employee must complete Form CA-1, Federal Employee’s
       Notice of Traumatic Injury and Claim for Continuation of Pay/Compensation, (DOL
       form) within 30 days of the date of injury to receive continuation of pay for a disabling
       traumatic injury. Further, medical documentation supporting the work-related injury
       must be received within 10 calendar days after the claim is submitted.

       The OIG identified two instances (100 percent of the OWCP cases in our review) where
       employees erred in following DOL regulations. In one of these instances, the employee’s
       OWCP claim was in jeopardy due to a procedural oversight. The T&A SOP does not
       provide specific guidance to timekeepers regarding OWCP leave requirements and
       processes.

       According to GAO, agencies need a well-defined organizational structure and flow of
       information with clearly written and communicated policies and procedures setting forth
       the responsibilities of employees, timekeepers, supervisors and others regarding
       recording of T&A information. Commission guidance instructs employees to contact the
       Office of Human Resources for assistance in filing a claim. Because work-related
       injuries are uncommon, determining how to navigate through the requirements is not
       always clear. OHR is helpful, but an FMC tip sheet identifying documentation
       requirements and the steps employees need to follow would greatly assist staff should the
       need arise.

       Best Practice No. 9: Prepare a tip sheet identifying OWCP documentation 

       requirements and its claims process. 


       Note: In response to discussions between OHR and the OIG, management sent an
       email to staff entitled, “What To Do If Injured at Work.” (12/10/09). The email
       contained much useful information for use by staff. We suggest circulating this email
       periodically (annually) to remind staff of its responsibilities and to ensure new staff
       (i.e., those hired since the last email notification) are knowledgeable of OWCP
       requirements.

                                                6
 
 
    8. OIG Periodic Audit of Timekeeper Records

       During the audit, the OIG identified a vulnerability in the STAR reporting system that
       cannot be corrected with a technical fix. Specifically, agency timekeepers and their
       alternates have access to the STAR system and all payroll records, including their own
       T&A records. An unscrupulous timekeeper could change leave balances, for example,
       with little fear of detection.

       According to GAO, agencies should review and test all aspects of the T&A systems’
       processing procedures and controls with sufficient scope, depth and frequency to provide
       reasonable assurance that key procedures and controls are effective in meeting legal and
       other requirements, and that data integrity is maintained. OIG review of OMB Circular
       A-123, Internal Control System Self Assessments, identified no weaknesses pertaining to
       T&A reporting.

       The OIG will, beginning in the Summer of 2010, perform reconciliations of timekeeper
       leave documentation with STAR and NFC records. Altered records in STAR will not
       reconcile with supervisor approvals.

       Best Practice No. 10: The OIG will annually review a sample of timekeeper T&A
       submissions as a control to guard against timekeeper errors and misstatements.

    9. Advancing Sick Leave to Employees Carrying an Annual Leave Balance

       The OIG identified employees who, due to medical emergencies, were required to request
       advance sick leave because their sick leave-balance was not sufficient to cover their need.
       In many instances, these employees maintained annual leave balances, which they were
       not required to use before going into a sick leave-deficit condition. Neither the FMC nor
       government regulations require employees to use annual leave before requesting advance
       sick leave.

       CO 64 allows an employee to request advance sick leave (up to 240 hours) for a serious
       disability, illness or other urgent need(s) upon written request to the Bureau or Office
       Director. Employees are asked to provide medical documentation and estimates of the
       amount of leave that will be needed. The number of hours advanced is based upon
       whether an employee is full-time or part-time. Full-time employees accrue sick leave at a
       rate of four hours each pay period (104 hours yearly) regardless of time in service while
       part-time employee sick leave is prorated.

       The OIG notes that other federal agencies encourage staff to use annual leave balances
       before requesting advance sick leave. For example, requests for advance sick leave at
       one federal agency generally will not be approved if: (a) the employee has sufficient
       annual or sick leave to cover the absence; (b) if the request is not for a serious illness or
       injury; (c) for periods over 6 workweeks; (d) if there is not a reasonable expectation that
       the employee will return to work; and (e) if the employee has applied for disability
       retirement. The FMC should consider this approach when granting advance leave. It is

                                                 7
 
 
       especially advantageous for employees who have a low annual leave balance by making
       them eligible for leave donations. During the period of employee absence, the employee
       would continue to accrue leave balances.

       Currently, CO 64 provides guidance to staff for advancing leave. The OIG identified no
       corresponding guidelines on use of annual leave as a substitute for sick leave.

       Best Practice No 11: Include guidance to staff on use of annual leave when employees
       request advance sick leave.

    10. Authorize OFM to Serve as the “Alternate Timekeeper” When the Office’s Primary
        or Alternate Timekeeper is not Available to Certify Time Cards

       The OIG identified instances where primary timekeepers, due to the absence or
       unavailability of the alternate timekeeper in the office, entered their own T&A
       information in the STAR system. Since STAR reports require timekeeper certification,
       the timekeepers simply requested other agency timekeepers to “sign off” on or certify the
       STAR document. Although in these specific cases it did not appear this was not done to
       fraudulently alter any T&A information, but to simply process a timecard, it circumvents
       controls designed to guard against such occurrences.

       The OIG is aware of other instances when alternate timekeepers were not available to
       enter the primary timekeeper’s T&A. In these instances, the timekeeper simply presented
       her T&A information to staff in OFM who, in turn, entered the data. OFM has access to
       all FMC employee T&A records and is the appropriate authority to input information
       when office timekeepers are not available. This also prevents having agency timekeepers
       certify to T&A input that, with rare exception, they have no direct or indirect knowledge
       of its accuracy.

       Best Practice No 12: When either a primary or alternate timekeeper within the same
       office is not available to enter the other’s T&A information, the timekeeper should
       provide the information to OFM for input into STAR.

Summary

       In the minds of many employees, there are few benefits that supersede flexible work
schedules and generous leave policies. Often times, flexibility enables many employees to
address home - life balance requirements, enhancing a person’s job satisfaction and ultimately
performance. However, along with flexibility come opportunities for abuse of such privileges.
Agencies need to strike a balance between meeting the needs of staff and implementing controls
to ensure that employees are not abusing the flexibility they have.

        Many practices we observed strengthened controls over abuse. Conversely, in attempts
to maximize employee flexibility, some practices lacked even minimal controls. The best
practices presented in this report are based on what the OIG believed worked to enhance controls
without muting leave and attendance benefits staff has earned and enjoy. But above all else, it is

                                                8
 
 
critical that the agency implement its T&A policies uniformly and hold bureaus and offices
accountable for their uniform implementation.

Attachments




                                               9
 
 
                                                                                                                                ATTACHMENT


 Employee Name:               From: May 9, 2010                                                                                   Note:
                                                                                   Pay Period No. 10
                              To: May 22, 2010


                                TC                                                     Totals                                                Totals
                               Code      Sun   Mon    Tue    Wed     Thu   Fri   Sat   Week 1   Sun   Mon     Tue   Wed   Thu    Fri   Sat   Week 2
 Regular Hours Worked            01

 Annual Leave                    61

 Donated Annual Leave          61/61

 Sick Leave                      62

 Family Friendly Sick          62/62

 Holiday/Admin/Jury Duty         66

 LWOP                            71

 Comp Time                       64

 Dates                                   5/9 5/10 5/11 5/12 5/13 5/14 5/15                      5/16 5/17 5/18 5/19 5/20 5/21 5/22



Timecards Due: Monday, May 24, 2010
                                          





I hereby certify the accurateness of this information (signature):                                Date:   

Management’s Comments

        Management generally agreed with the OIG recommendations to standardize time and
attendance practices among the agency’s bureaus and offices. Management also further clarified
for the OIG steps it has taken, or will take, to strengthen controls over T&A.

       During the exit meeting with the managing director, the OIG and management disagreed
over Best Practice No. 4 regarding the use of an internal FMC form to record daily hours worked
and leave used. During the discussion, management indicated that, notwithstanding its response,
it would pole bureau managers regarding the necessity to maintain this form.

       The OIG is working with management to resolve this disagreement. Rather than delay
issuance of the report, the OIG is releasing it with this caveat. Management’s comments are
presented in their entirety.
UNITED STATES GOVERNMENT                                                 FEDERAL MARITIME COMMISSION

  Memorandum
TO           :  Inspector General                                             DATE:  April 19, 2010 


FROM         :  Managing Director 


SUBJECT  :  Report on Best Practices for Time and Attendance Implementation 

        The  above‐captioned  report  contains  recommendations  for  12  best  practices  relative  to 
time  and  attendance  policies  and  procedures  at  the  Federal  Maritime  Commission.   We  herein 
provide advice concerning those recommendations.  

        Best  Practice  No.  1:   The  OIG  recommends  that  approval  of  leave  should  be  made  by 
the  employee’s  supervisor,  or  other  designated  approving  official,  before  the  leave  is  taken, 
and that if  leave is not approved in advance because of an unusual or emergency situation, it 
should  be  reviewed  for  approval  (or  disapproval)  as  soon  as  reasonably  possible  after  it  is 
taken. 

        Response:  The OMD agrees with this best practice recommendation.    

     Best  Practice  No.  2:    The  OIG  recommends  that  all  requests  for  leave  should  be 
documented on OPM Form 71. 

           Response:   The  OMD  agrees  that  all  advance  requests  for  leave  should  be  documented 
on  OPM  Form  71,  as  stated  in  Commission  Order  64,  Employee  Absence  &  Leave.  It  should  be 
noted, however, that if an employee initials his/her time card, the OPM Form 71 (or equivalent) 
plus any supporting documentation of requests and approvals of leave are destroyed at the end 
of  the  following  pay  period  according  to  NARA  General  Records  Schedule  2,  Item  6  guidelines.  
If  the  time  card  is  not  initialed,  records  are  destroyed  after  a  GAO  audit  or  when  3  years  old, 
whichever is sooner.  All T&A Source records and Input records (such as time or sign‐in sheets – 
equivalent  to  the  FMC‐109)  are  destroyed  after  GAO  audit  or  when  6  years  old,  whichever  is 
sooner. 

      Best  Practice  No.  3:    The  OIG  recommends  that  either  the  supervisor  or  the 
timekeeper should maintain custody of approved leave slips. 

        Response:  The OMD agrees with this best practice recommendation.                                             
        Best  Practice  No.  4:   The  OIG  recommends  continued  use  of  FMC  Form  109  to  record 
leave usage for all staff but that the form should be amended to capture employee daily work 
and leave hours, and that the requirement to record daily arrival and  departure times should 
be  discontinued.   OIG  also  recommends  that  FMC  Form  109  should  be  revised  to  include  an 
expanded  certification  statement  to  include  the  identification  of  sanctions  for  fraudulently 
recording time. 

        Response:    The  OMD  agrees  that  all  employees  on  a  compressed  schedule  should 
continue to use Form FMC‐109, Employee Arrival and Departure Record, as required by C.O. 92, 
Work  Schedules.    The  OMD  does  not  agree  that  the  current  Form  FMC‐109  needs  revision;  it 
already  captures  employee  daily  work  and  leave  hours.    C.O.  63,  Workforce  Discipline  and 
Adverse Actions, will be revised to specifically list sanctions for fraudulent reporting of time and 
attendance.  It is anticipated that revisions to C.O. 63 will be completed by September 30, 2010.  
It  should  also  be  noted  that  under  no  circumstance  does  the  FMC‐109  constitute  an  official 
document for pay and leave purposes (see C.O. 92, Section 11).   

      Best  Practice  No.  5:    The  OIG  recommends  that  all  timekeepers,  and  alternate 
timekeepers when feasible, be physically located within the office they serve. 

       Response:    The  OMD  agrees  that  proximity  of  timekeepers  to  staff  they  serve  is 
important.   However,  it  should  be  noted  that  supervisors  are  solely  responsible  for  reviewing 
and approving requests for leave and ensuring accurate documentation of employees’ time and 
attendance records. Timekeeper observation cannot serve as a substitute for this. 

       Best  Practice  No.  6:    The  OIG  recommends  that  changes  to  AWS  days  should  be 
approved  in  advance  and  in  writing  by  the  supervisor,  and  that  documentation  should  be 
provided to the timekeeper for reconciliation. 

        Response:   The  OMD  agrees  with  this  best  practice  recommendation.   C.O.  92  requires 
that  requests  for  changes  to  work  schedules  be  approved  in  advance.   The  OMD  recommends 
that  supervisors  be  reminded  of  this  requirement  and  ensure  documentation  is  provided  to 
timekeepers for accurate recording and reconciliation of time and attendance. 

        Best Practice No. 7:  The OIG  recommends that all work in excess of 80 hours that will 
be  earned  as  compensatory  time  should  be  approved  by  the  supervisor  with  bureau  /  office 
director concurrence. 

       Response:    The  OMD  agrees  that  any  work  performed  in  excess  of  80  hours  per  pay 
period,  where  compensatory  time  will  be  earned,  should  be  approved  in  advance.  Form  FMC‐
70,  Request,  Authorization  and  Report  of  Overtime/Compensatory  Time,  requires  that 
overtime/compensatory  time  be  “requested”  by  “bureau/office  director,”  “authorized”  by 
Director,  OBF,  and  “Approved”  by  the  Managing  Director.   We  believe  this  is  sufficient.   Minor 

                                                                                                  Page | 2
revisions to  Form FMC‐70 will be completed and a revised form will be  available and posted  on 
the Intranet by June 30, 2010. 

        Best  Practice  No.  8:   The  OIG  recommends  that  supervisory  approval  be  obtained  for 
all  work  schedule  changes,  and  that  when  a  supervisor  changes,  direct  reports  should  submit 
a new FMC Form 110 for supervisory concurrence. 

        Response:  The OMD agrees with this best practice recommendation.   The requirement 
for  supervisory  approval  of  work  schedule  changes  is  already  included  in  C.O.  92.   C.O.  92  will 
be amended to require submission and approval of a new Form FMC‐110 whenever a change in 
an employee’s supervisor occurs.  It is anticipated that revisions to C.O. 92 will be completed by 
September 30, 2010.   

     Best  Practice  No.  9:    The  OIG  recommends  that  a  tip  sheet  be  prepared  identifying 
OWCP documentation requirements and its claims process. 

        Response:    The  OMD  recognizes  that  the  OIG  took  note  of  an  email  sent  to  all 
employees in December 2009 by OHR with the subject line, What To Do If Injured At Work, and 
agrees  that  this  email  could  be  re‐issued  periodically,  perhaps  every  other  year  in  June  during 
National  Safety  Month  as  a  reminder  to  all  employees.    Also  in  December  2009,  OHR  posted 
Department  of  Labor  Form  CA‐10,  What  a  Federal  Employee  Should  Do  When  Injured  At  Work, 
on  the  bulletin  boards  on  the  9th  and  10th  floors  of  the  HQ  building.    Further,  this  Form  and 
additional  information  including,  e.g.,  links  to  other  OWCP  forms,  Frequently  Asked  Questions, 
and specific instructions related to on‐the‐job injuries and the claims process was posted on the 
agency’s  intranet  at  http://home.fmc.gov/WhatToDoWhenInjuredAtWork.html.    Actions  to 
provide  updated  information  on  OWCP  processes  and  procedures  were  completed  in 
December, 2009, independent of this recommendation. 

       Best  Practice  No.  10:    The  OIG  indicates  that  they  will  annually  review  a  sample  of 
timekeeper  T&A  submission  as  a  control  to  guard  against  timekeeper  errors  and 
misstatements. 

     Response:   The  OMD  notes  that  the  OIG  will  begin  this  review  at  some  point  during  the 
summer of 2010, and that the review will be done yearly. 

       Best  Practice  No.  11:   The  OIG  recommends  that  guidance  on  the  use  of  annual  leave 
be provided to employees requesting that sick leave be advanced to them. 

       Response:    The  OMD  notes  that  the  OIG  states,  “neither  the  FMC  nor  government 
regulations  require  employees  to  use  annual  leave  before  requesting  advance  sick  leave.”  
Guidance  on  the  use  of  annual  leave  in  lieu  of  sick  leave  is  included  in  C.O.  64,  Absence  and 
Leave.   Employees  are  responsible  for  understanding  the  provisions  of  C.O.  64  and  employees 

                                                                                                      Page | 3
otherwise  eligible  for  an  advance  of  sick  leave  as  described  in  C.O.  64,  will  not  be  required  to 
exhaust  their  annual  leave  before  receiving  advanced  sick  leave.    Employees  experiencing  a 
personal  or  family  medical  emergency  and  who  are  expected  to  exhaust  their  own  available 
paid  leave  are  counseled  about  the  Voluntary  Leave  Transfer  Program;  however,  it  should  be 
noted that employees receiving leave donations do not accrue leave in StarWeb during the time 
they are an approved leave recipient in the Voluntary Leave Transfer Program. 

        While  in  the  leave  donor  program,  the  employee  will  earn  annual  and  sick  leave  each 
pay period up to a maximum balance of 40 hours in each leave category (although not recorded 
in  StarWeb).  This  balance  is  maintained  and  verified  by  OHR  staff  so  that  when  the  employee 
comes out of the leave donor program or exhausts his/her leave donations, leave earned (up to 
40  hours  of  annual  and  40  hours  of  sick  leave)  can  be  added  to  the  employee’s  leave  balances 
by OBF. 

      Best  Practice  No.  12:   The  OIG  recommends  that  when  either  a  primary  or  alternate 
timekeeper  within  the  same  office  is  not  available  to  enter  the  others  T&A  information,  the 
timekeeper should provide the information to OBF for input into STAR. 

        Response:   The  OMD  agrees  that  timekeepers  should  not  enter  their  own  information 
into  the  STAR  system.  OBF  often  prepares  timecards  for  offices  that  do  not  have  T&A  clerks 
and/or  when  the  clerks  are  otherwise  unavailable.    However,  it  should  be  noted  that  OBF 
employees,  like  other  agency  timekeepers  as  described  in  the  OIG’s  narrative,  would  rarely 
have  direct  or  indirect  knowledge  of  whether  the  time  reported  was  correct  in  order  to 
properly certify the T&A input. 

                                   




                                                                                                        Page | 4
Summary 

         The OMD agrees with the OIG that it is important for the Commission to strike a balance 
between  meeting  the  work‐life  needs  of  staff  and  implementing  controls  to  ensure  that 
employees  do  not  abuse  the  flexibilities  they  enjoy.      To  the  extent  possible  and  practicable, 
time  and  attendance  policies  should  be  uniformly  applied  throughout  the  agency.   To  that  end, 
I  intend  to  distribute  to  all  employees  a  memo  regarding  the  revision  of  C.O.s  63  and  92  to 
ensure  accountability  and  sanctions  are  in  place,  as  well  as  best  practices  to  be  implemented 
for  time  and  attendance.    This  memo  will  be  issued  soon  after  the  revised  C.O.s  have  been 
posted to the intranet but no later than October 15, 2010.   

        If you have any questions regarding the above responses, please let me know. 




                                                  /Ronald D. Murphy/ 

cc:  Directors OBF and OHR 




                                                                                                    Page | 5
